No. 20-5570

IN THE

Supreme Court of the United States
RICHARD BERNARD MOORE,
Petitioner,

v.
BRYAN P. STIRLING, Commissioner, South
Carolina Department of Corrections, MICHAEL
STEPHAN, Warden of Broad River Correctional
Institution,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit
CERTIFICATE OF SERVICE

I hereby certify that I am a member of the bar of this Court and that on this
2nd day of October, 2020, pursuant to Rule 29.3 of the Supreme Court Rules, I have
caused copies of the foregoing Brief of Amicus Curiae of the National Association of
Criminal Defense Lawyers in Support of Petitioner to be served by Federal Express
Overnight Delivery or United States Postal Service First Class Mail and electronic
transmission upon counsel listed below:
Federal Express Overnight Delivery

United States Postal Service
First Class Mail

Lindsey Sterling Vann
Justice 360
900 Elmwood Ave., Suite 200
Columbia, SC 29201
lindsey@justice360sc.org

William Edgar Salter, III
Counsel of Record
Alan Wilson
Donald J. Zelenka
Melody J. Brown
Office of Attorney General
P.O. Box 11549
Columbia, South Carolina 29211
esalter@scag.gov

COUNSEL OF RECORD FOR PETITIONER

Federal Express Overnight Delivery
Christopher W. Adams
The Law Offices of Christopher W.
Adams, P.C.
102 Broad Street, Suite C
Charleston, SC 29401
chris@adamsbischoff.com

dzelenka@scag.gov
mbrown@scag.gov
COUNSEL FOR RESPONDENTS

COUNSEL FOR PETITIONER
Federal Express Overnight Delivery
John H. Blume
Cornell Law School
159 Hughes Hall
Ithaca, NY 14853
jb94@cornell.edu
COUNSEL FOR PETITIONER
Dated at Washington, DC, this 2nd day of October, 2020.
/S /
JONATHAN L. MARCUS
Jonathan L. Marcus
Counsel of Record
Thania Charmani
Judith A. Flumenbaum
SKADDEN, ARPS, SLATE,
MEAGHER & FLOM LLP
1440 New York Ave., N.W.
Washington, DC 20005
(202) 371-7000
ATTORNEY FOR Amicus Curiae

